OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SUDAN’S
EDUCATION ACTIVITIES
AUDIT REPORT NO. 4-650-09-002-P
January 21, 2009




PRETORIA, SOUTH AFRICA
Office of Inspector General


January 21, 2009

MEMORANDUM

TO:                  USAID/Sudan, Mission Director, Patrick C. Fleuret

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Sudan’s Education Activities
                     (Report No. 4-650-09-002-P)

This memorandum transmits our final report on the subject audit. In finalizing our report, we
considered your comments on our draft report and have included your response in its entirety as
appendix II.

The report includes six recommendations that USAID/Sudan: (1) provide training to properly
record and report on program results and maintain source documentation; (2) establish
procedures to ensure that reported results from implementing partners meet data quality
standards; (3) establish procedures requiring final review and approval from senior
management for performance management plans; (4) strengthen procedures to review data
validity and reliability in all of its data quality assessments; (5) establish procedures that require
the regular confirmation of data validity and reliability, as well as adequate reporting systems,
for results during site visits; and (6) establish procedures requiring that site visit reports reflect
the confirmation of data validity and reliability.

In your response to the draft report, you provided corrective action plans addressing all six
recommendations. Therefore, we consider that management decisions have been reached on
these recommendations. You also provided evidence that the corrective action had been
completed on recommendation no. 3. We, therefore, consider that final action has been taken for
this recommendation with the publication of this report. Please provide the Office of Audit,
Performance, and Compliance Division (M/CFO/APC) with the necessary documentation to
achieve final action on recommendation nos. 1, 2, 4, 5, and 6.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Box 43 Groenkloof
Pretoria 0027, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Reported Results Were Not Always Valid
and Reliable ...................................................................................................................... 3

Performance Management Plan Not
Approved by Management ................................................................................................ 6

Data Quality Assessments Were
Not Thoroughly Completed ............................................................................................... 7

Site Visits Were Not Thoroughly Conducted..................................................................... 8

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14

Appendix III – USAID/Sudan’s Education Indicators for Fiscal Year 2007 .............. 17
SUMMARY OF RESULTS
Sudan is the highest priority in sub-Saharan Africa for U.S. foreign assistance and one of
the U.S. Government’s highest foreign policy imperatives overall. Sudan’s 2005
Comprehensive Peace Agreement attempts to address historic regional disparities
between isolated and chronically underdeveloped regions and the capital Khartoum.
USAID/Sudan’s primary goal is to nurture the achievement of peace through the
successful implementation of the peace agreement. The education portfolio contributes
to this goal (page 2).

This audit, performed at USAID/Sudan by the Regional Inspector General/Pretoria, is
part of the fiscal year (FY) 2008 annual audit plan of the Office of Inspector General.
The audit was conducted to determine whether selected USAID/Sudan education
activities were achieving planned results and what the impact has been (page 2).

Two of USAID/Sudan’s education activities 1 have achieved their intended results, as
summarized in appendix III. The audit team audited eight of the mission’s performance
indicators for education and determined that six did not have valid and reliable data for
FY 2007, and therefore the audit team was unable to provide a conclusion for these.
However, the remaining two indicators did achieve their intended results (page 3).

USAID/Sudan’s education program has had a positive impact at the activity level. Some
examples include the following:

      •   Administrators and officials were trained.
      •   Primary and secondary students were enrolled in USAID-supported schools.
      •   Adults were enrolled in USAID-supported programs.
      •   Teachers and educators were trained.
      •   Textbooks and other materials were provided by USAID assistance.
      •   Laws, policies, regulations, or guidelines were developed or modified (page 3).

Although progress has been made in FY 2007, this report includes six recommendations
to strengthen USAID/Sudan’s education program.                  Recommended actions are
summarized as follows: (1) provide training to properly record and report on program
results and maintain source documentation; (2) establish procedures to ensure that
reported results from implementing partners meet data quality standards; (3) establish
procedures requiring final review and approval from senior management for performance
management plans; (4) strengthen procedures to review data validity and reliability in all
of its data quality assessments; (5) establish procedures that require the regular
confirmation of data validity and reliability, as well as adequate reporting systems for
results, during site visits; and (6) establish procedures requiring that site visit reports
reflect the confirmation of data validity and reliability (pages 6 to 9).

Management’s comments are included in their entirety in appendix II.




1
    Each of the mission’s education activities had a separate performance indicator.
                                                                                            1
BACKGROUND
Sudan is the highest priority in sub-Saharan Africa for U.S. foreign assistance and one of
the U.S. Government’s highest foreign policy imperatives overall. In fiscal year (FY)
2007, Sudan remained a “rebuilding” country: It is gradually emerging from a protracted
civil war between its north and south, with ongoing conflicts in the east and in the Darfur
region in the west. Historic regional disparities between these isolated and chronically
underdeveloped regions and the capital, Khartoum, continue to foment tensions. The
2005 Comprehensive Peace Agreement, establishing a 6-year roadmap for the
democratic transformation of Sudan, attempts to address some of these issues.

The Sudan mission’s primary goal under its Fragile States Strategy is to nurture the
achievement of a just and lasting peace through the successful implementation of
Sudan’s Comprehensive Peace Agreement. The strategy has two strategic objectives:
to avert and resolve conflict and to promote stability, recovery, and democratic reform in
southern Sudan. The education portfolio contributes to both objectives through program
activities that bolster confidence in the peace agreement and in the new Government of
Southern Sudan among its constituents.

Activities in the education portfolio support the foundations for a viable education system
in Southern Sudan and the “Three Areas” south of Khartoum by working to strengthen
the Ministry of Education and by improving education service delivery through policy
formulation, quality education programs delivered via radio, support for girls’ education,
and community mobilization and strengthening of health and education activities in the
Three Areas. These efforts strengthen the government’s education institutions and their
capacities to provide quality basic education services. The education programs operate
throughout Southern Sudan and Three Areas to address the high demand for education
services from a variety of Sudanese populations. The radio-based program provides
high-quality education programs both for children in primary schools and for youth and
adults who have not had access to basic education services. The gender equity through
education program builds upon a successful USAID program that provided scholarships
for girls to attend secondary school. Technical assistance to the Ministry of Education
and state ministries is both strengthening institutional capacity and developing sound
education policies, particularly in the area of teacher education.

In FY 2007, USAID/Sudan reported total planned funding of $17.7 million for the education
program, awarded to four major implementing partners.

AUDIT OBJECTIVE
The Office of Inspector General conducted this audit as part of its FY 2008 audit plan to
answer the following question:

   •   Did USAID/Sudan’s education activities achieve selected planned results, and
       what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.



                                                                                         2
AUDIT FINDINGS
The audit determined that USAID/Sudan’s education activities achieved two of eight
intended results in fiscal year (FY) 2007. 2 For the remaining six intended results, the
audit team determined that valid and reliable FY 2007 performance reporting was not
available for the related performance indicators. As a result, the audit team was unable
to provide a conclusion concerning those six intended results.

Nevertheless, in implementing its various activities, USAID/Sudan’s education program
has had a positive impact on Sudan’s educational system. Some examples include the
following:

     •   Administrators and officials were trained.
     •   Primary and secondary students were enrolled in USAID-supported schools or
         equivalent non-school-based settings.
     •   Adults were enrolled in USAID-supported programs.
     •   Teachers and educators were trained with USAID assistance.
     •   Textbooks and other teaching and learning materials were provided by USAID
         assistance.
     •   Parent-teacher associations or similar school governance structures were
         supported by USAID.
     •   Laws, policies, regulations, or guidelines were developed or modified to improve
         equitable access to or the quality of education services.

Despite the fact that USAID/Sudan’s education program achieved two of its targets and
made progress in other activities, the mission can strengthen its program in several
areas. These areas include (1) reported results that were not always valid and reliable,
(2) a performance management plan (PMP) that was not approved by management, (3)
data quality assessments that were not thoroughly completed, and (4) site visits that
were not thoroughly conducted. These issues are discussed below.

Reported Results Were Not Always
Valid and Reliable

    Summary: Contrary to USAID guidance, reported results for six indicators were not
    always valid and reliable. The principal cause was the lack of adequate
    recordkeeping and reporting systems, which resulted from a lack of training, as well
    as weak internal control over monitoring and evaluating.             Consequently,
    USAID/Sudan did not have reasonable assurance that intended results were being
    achieved, which could negatively affect performance-based decisions.

USAID’s results-oriented management approach relies on its managers considering
performance information when making decisions. Sound decisions require accurate,

2
 As detailed in appendix II, this audit examined only 8 of the 11 performance indicators for
USAID/Sudan‘s education activities.


                                                                                           3
current, and reliable information, and the benefits of USAID’s results-oriented approach
depend substantially on the quality of the performance information available. 3

A key element in an indicator’s reliability is that the indicator actually reflects what it
purports to measure. This element is recognized by both USAID’s Automated Directives
System (ADS) and the Guidelines for Indicator and Data Quality. ADS 203.3.4.2 states
that indicators selected for inclusion in the PMP should measure changes that are
clearly and reasonably attributable, at least in part, to USAID. The guidelines state that
one of the critical requirements for an indicator is the degree to which the indicator and
the related data accurately reflect the process it is being used to measure. The
guidelines further state that validity refers to data that clearly and directly measure the
result they are intended to measure; reliability refers to data that have a stable or
consistent measuring process; and timeliness refers to data that are sufficiently up to
date to be useful in decisionmaking. Finally, it is also important that performance
information be documented. The Government Accountability Office’s (GAO) Standards
for Internal Control in the Federal Government states that all transactions and significant
events need to be clearly documented and that the documentation should be readily
available.

Six of USAID/Sudan’s education indicators had data quality problems, which raised
questions concerning the validity and reliability of the respective reported results in the
mission’s FY 2007 performance narrative. These problems included (1) the lack of
supporting documentation for results at implementing partners as well as service
providers and (2) unreconciled differences between the records of implementing
partners and those of service providers. The following four implementing partners
reported results that were included in these six indicators:

Educational Development Center (EDC) – The reported FY 2007 education results
received from EDC for four indicators were not supported, and therefore the validity and
reliability of the results could not be determined. For PMP indicator nos. 2, 4, 5, and 9, 4
the implementing partner did not maintain adequate documentation to support the
reported results. The available records did not reconcile with the reported results from
providers at various locations in which the activities were conducted. The partner’s
records also did not reconcile with those of the service providers sampled for indicator
nos. 2 and 4. At the service provider level, the schools’ records were not always
complete, and reporting systems were not consistent.

Creative Associates International, Inc. (CAII) – The reported FY 2007 education
results received from CAII for three indicators were not supported, and therefore the
validity and reliability of the results could not be determined. For PMP indicator nos. 2,
5, and 6, the implementing partner did not have any available records to support the
reported results. The partner stated that, owing to civil unrest, the location at which the
records were maintained was damaged and the records were lost. There were no
duplicate records.

Academy for Educational Development (AED) – The reported FY 2007 education
results received from AED for one indicator were not entirely supported, and therefore

3
 USAID’s Guidelines for Indicator and Data Quality (TIPS No. 12).
4
  Indicator numbering follows the sequence presented in the USAID/Sudan Education PMP
section 2.1. Appendix III presents a list of indicators.


                                                                                          4
the validity and reliability of the results could not be determined. For operational plan
indicator no. 5, the implementing partner did not have adequate available records to
support all of the reported results. The partner did have adequate support for the first
two phases of the three-phase teacher training, but phase three, the largest of the three
components, was not adequately documented and supported.

CARE – The reported FY 2007 education results received from CARE for one indicator
were not supported, and therefore the validity and reliability of the results could not be
determined. For PMP indicator no. 3, the implementing partner did not have adequate
available records to support the reported results. The partner’s records also did not
reconcile with those of the service providers that were sampled for this indicator. At the
service provider level, the schools’ records were not always complete, and reporting
systems were not consistent.




         Photograph of USAID staff observing USAID-sponsored radio-based
         instruction in Rumbek, Sudan, February 2008. (Photograph taken by
         USAID implementing partner.)

The data problems described above occurred because of a lack of training for the
service providers and the implementing partners. A contributory cause was a weak
system of internal control associated with data quality assessments and site visits, which
are discussed later in this report. The service providers, which consisted of several
types of local organizations, were not always aware of recordkeeping and reporting
systems requirements. In addition to a lack of source documents, service providers
used a variety of reporting mechanisms, which included the telephones, fax machine,
and e-mail. With these inadequate records and inconsistent and undocumented
reporting systems, internal control for results reporting was not sufficiently reliable to
ensure that reported service provider results were (1) valid, (2) attributable to the
mission’s program, (3) accurate and supported, and (4) accurately summarized prior to
being reported to the mission.



                                                                                        5
Without accurately reported results, USAID/Sudan did not have reasonable assurance
that data quality met validity, reliability, and timeliness standards, 5 the lack of which
could negatively affect performance-based decisionmaking. For these reasons, this
audit makes the following recommendations to strengthen the results reporting system
under the mission’s education program:

     Recommendation No. 1: We recommend that USAID/Sudan develop and
     implement a plan, with milestones, to provide training to all implementing
     partners and service providers on how to (a) properly record and report on
     program results, (b) maintain source documents, and (c) avoid mathematical
     errors.

     Recommendation No. 2:              We recommend that USAID/Sudan establish
     procedures to ensure that reported results from implementing partners meet
     validity, reliability and timeliness standards.

Performance Management Plan Not
Approved by Management

    Summary: Contrary to applicable guidance, the performance management plan for
    the FY 2007 education program was not approved by senior management. This
    occurred because the mission did not have procedures requiring a final review and
    approval of the plan. Therefore, management lost an important opportunity for
    review and possible revision.        Without an updated and approved plan,
    USAID/Sudan did not have adequate assurance that it was maintaining the
    elements that are essential to the operation of a credible and useful performance-
    based management system.

USAID’s ADS emphasizes that operating units must prepare a performance
management plan for each strategic objective. 6 PMP information should enable
comparable performance data to be collected over time, even in the event of staff
turnover, and should clearly articulate expectations in terms of scheduling and
responsibility. Specifically, PMPs should provide a detailed definition of the performance
indicators that will be tracked; specify the source, method of collection, and schedule of
collection for all required data; and assign responsibility for collection to a specific office,
team or individual. 7 In addition, the GAO’s Standards for Internal Control in the Federal
Government states that control activities are an integral part of achieving effective
results and that such activities include approvals and authorizations.

Despite the importance of approvals and authorizations, the PMP for the FY 2007
education program was not approved by USAID/Sudan management.              Mission
procedures simply called for distribution of the final version of the plan without
management review and approval, which could have identified necessary updates. For
5
   USAID’s Guidelines for Indicator and Data Quality (TIPS No. 12) provides data quality
standards. Validity refers to data that clearly and directly measure the result they are intended to
measure. Reliability refers to data that have a stable or consistent measuring process.
Timeliness refers to data that are sufficiently up to date to be useful in decisionmaking.
6
  ADS 203.3.3.
7
  ADS 203.3.3.1.


                                                                                                  6
example, the targets for three indicators (nos. 2, 5, and 8) were not updated to be
consistent with the operational plan, and an additional indicator, “Number of
Evaluations,” was added to the operational plan for FY 2008 but was not included in the
PMP. In the absence of senior management review and approval, the mission lost an
important opportunity for review and necessary revision.

Without an updated and approved PMP, USAID/Sudan has had a less effective critical
tool for planning, managing, and documenting data collection as required by the ADS.
Complete and approved PMPs contribute to the effectiveness of the performance
management system by ensuring that comparable data will be collected on a regular and
timely basis. Without such a plan, the mission did not have adequate assurance that it
was maintaining the elements that are essential to the operation of a credible and useful
performance-based management system. To address this situation, this audit makes
the following recommendation:

   Recommendation No. 3: We recommend that USAID/Sudan (a) establish
   procedures requiring senior mission management review and approval of final
   performance management plans and (b) review and approve the performance
   management plan for the education program.


Data Quality Assessments Were
Not Thoroughly Completed

  Summary: Contrary to USAID guidance, data quality assessments for the
  education program were not always thoroughly completed in FY 2007. This
  problem arose as a result of weak internal control and reported staffing constraints.
  Without complete data quality assessments, data quality problems resulted, and
  USAID/Sudan did not have reasonable assurance that data quality for its indicators
  met validity, timeliness, and reliability standards, the lack of which could negatively
  affect performance-based management decisions.

ADS 203.3.5.2 states that the purpose of data quality assessments is to ensure that
operating units are aware of (1) the strengths and weaknesses of the data as
determined by applying applicable quality standards and (2) the extent to which data
integrity can be trusted to influence management decisions. ADS 203.3.5.2 also states
that data reported to USAID/Washington for Government Performance and Results Act
reporting purposes or for reporting externally on USAID performance must have had a
data quality assessment within the 3 years before submission.

Although USAID/Sudan had been completing data quality assessments for its education
indicators, the validity and reliability of the data were not adequately tested in those
assessments. The mission’s data quality assessments did not include an analysis of
data validity and reliability for six indicators. As a result, data validity and reliability
problems were not identified before the mission reported results for these six indicators.

The mission indicated that this situation arose from the fact that the program was new
for FY 2007. It also noted that staffing constraints contributed to the incomplete data
quality assessments. According to mission officials, one consequence of having a



                                                                                            7
limited staff with responsibility for a large portfolio was that the mission was unable to
comply with all ADS requirements.

Without adequate data validity and reliability testing, the mission did not have
reasonable assurance that data used for performance-based decisionmaking and
reporting were valid and reliable. Procedures for addressing data integrity problems
identified in data quality assessments could easily have corrected the data validity and
reliability problems for the respective indicators identified in this report. To address the
need to thoroughly complete data quality assessments for the education program, this
audit makes the following recommendation:

   Recommendation No. 4: We recommend that USAID/Sudan strengthen its
   procedures to ensure that all of its data quality assessments include a thorough
   review of data validity and reliability.


Site Visits Were Not
Thoroughly Conducted

  Summary: Contrary to USAID guidance, USAID/Sudan did not thoroughly conduct
  site visits at its implementing partners and service providers. The mission
  attributed this problem to the fact that a major portion of the program was new, and
  also to the lack of available staff. Without active monitoring and thorough site
  visits, the mission did not have reasonable assurance that data used for
  performance-based decisionmaking and reporting were valid and reliable.

ADS 202.3.4.6 states that strategic objective teams must ensure that they have
adequate official documentation on agreements used to implement USAID-funded
projects, as well as on the resources expended, issues identified, and corrective actions
taken. Moreover, ADS 202.3.6 states that monitoring the quality and timeliness of
implementing partners’ outputs is a major task of cognizant technical officers and
strategic objective teams. It specifies that problems in output quality provide an early
warning that results may not be achieved as planned and that early action in response to
problems is essential in managing for results.

Although the education team conducted some site visits, it did not have documentation
supporting that data validity and reliability were verified during those visits. This was a
particularly crucial omission for the partners that were experiencing data validity,
reliability, and reporting problems. According to mission officials, this problem resulted,
at least in part, from the fact that FY 2007 was the first year of implementation for a large
portion of the program and, consequently, the mission’s team and partners were new to
the program. Additionally, the mission reported that it had staffing constraints during FY
2007. According to the mission, these staffing constraints affected the education team’s
ability to properly complete monitoring and evaluation activities.

Without active monitoring through regular site visits and data verification, the mission did
not have reasonable assurance that data used for performance-based decisionmaking
and for reporting were valid and reliable. An active monitoring program with regular site
visits for monitoring project progress and verifying data could easily have identified



                                                                                           8
documentation and reporting issues and avoided many of the data reliability problems
identified in this report. Therefore, this audit makes the following recommendations:

   Recommendation No. 5:          We recommend that USAID/Sudan establish
   procedures that require the regular confirmation of data validity and reliability, as
   well as adequate reporting systems, for results during site visits at all
   implementing partners and service providers.

   Recommendation No. 6:           We recommend that USAID/Sudan establish
   procedures requiring that the confirmation of data validity and reliability during
   site visits be documented in site visit reports.




                                                                                           9
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Sudan concurred with all six
recommendations. The mission described the actions taken and planned to be taken to
address our concerns. The mission’s comments and our evaluation of those comments
are summarized below.

In response to recommendation no. 1, concerning training for all implementing partners
and service providers, USAID/Sudan concurred with the recommendation. The mission
is scheduling meetings on data quality, proper recording, reporting, and maintenance of
source documents. These meetings will be completed by June 2009. As a result of
these planned actions, we consider that a management decision has been reached on
this recommendation. Documentation supporting the completed actions should be sent
to Office of Chief Financial Officer, Audit, Performance and Compliance Division
(M/CFO/APC) for final action.

In response to recommendation no. 2, concerning procedures to ensure that reported
results from implementing partners meet validity, reliability, and timeliness standards,
USAID/Sudan concurred with the recommendation.              The mission is scheduling
assessments of data management, flow, and reporting systems of all partners, to be
completed by June 2009. As a result of these planned actions, we consider that a
management decision has been reached on this recommendation. Documentation
supporting the completed actions should be sent to M/CFO/APC for final action.

In response to recommendation no. 3, concerning procedures for senior management
review and approval of the final performance management plan, USAID/Sudan
concurred with the recommendation. The mission provided evidence that the corrective
action had already been completed on this recommendation. Therefore, we consider that
final action has been taken for this recommendation with the publication of this report.

In response to recommendation no. 4, concerning strengthened procedures to ensure
that all data quality assessments include a thorough review of data validity and reliability,
USAID/Sudan concurred with the recommendation. A mission order addressing the
reported weaknesses in data quality assessments will be published by February 2009.
As a result of these planned actions, we consider that a management decision has been
reached on this recommendation. Documentation supporting the completed actions
should be sent to M/CFO/APC for final action.

In response to recommendation no. 5, concerning procedures that require data quality
verification during site visits, USAID/Sudan concurred with the recommendation. The
mission will update the performance management plan to reflect the new procedures by
June 2009, as well as provide training to all cognizant technical officers and activity
managers. As a result of these planned actions, we consider that a management
decision has been reached on this recommendation. Documentation supporting the
completed actions should be sent to M/CFO/APC for final action.




                                                                                          10
In response to recommendation no. 6, concerning procedures requiring the confirmation
of data quality testing during site visits be documented, USAID/Sudan concurred with the
recommendation. By the end of February 2009, the mission will prepare a site visit
checklist for use during site visits. As a result of these planned actions, we consider that
a management decision has been reached on this recommendation. Documentation
supporting the completed actions should be sent to M/CFO/APC for final action.




                                                                                         11
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective, which was to determine whether USAID/Sudan’s education activities
achieved their intended results and what the impact of its program has been. Audit
fieldwork was conducted at USAID/Sudan from June 16 to July 11, 2008, and covered FY
2007.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and review of
performance measures and indicators. Specifically, we obtained an understanding of and
evaluated (1) the FY 2007 operational plan (new requirement for FY 2007), (2) the FY 2007
performance management plan, (3) the Federal Managers’ Financial Integrity Act of 1982,
(4) implementing partner agreements, (5) performance measures, (6) actual performance
results, (7) FY 2007 data quality assessments, and (8) financial reports. We also
conducted interviews with key USAID/Sudan personnel and implementing partners. We
conducted the audit at USAID/Sudan and in seven states.

As of September 30, 2007, USAID/Sudan’s education program had agreements with four
major partners. We primarily focused on these four agreements. Planned obligations for
the year totaled $17.7 million.

Methodology
To answer the audit objective, we reviewed the FY 2007 operational plan’s planned and
actual results. At USAID/Sudan, the education program reported on 11 indicators in its
operational plan, 9 of which had activity in FY 2007. We did not audit 3 of the 11
indicators because (1) 2 indicators were not funded in FY 2007 and, accordingly, had no
FY 2007 activity and (2) the third indicator was descriptive.

For the eight remaining standard indicators, we validated performance results and
compared reported information to documented results for a judgmentally selected
sample of results submitted by implementing partners for FY 2007. We reviewed the
agreements, progress reports, and work plans of the implementing partners and service
providers that contributed results to the eight indicators that we tested.

We reviewed applicable laws and regulations, as well as USAID policies and procedures
pertaining to USAID/Sudan’s education program, including the Federal Managers’
Financial Integrity Act of 1982 and Automated Directives System (ADS) chapters 202
and 203, as well as supplemental ADS guidance.




                                                                                      12
We also reviewed obligating and budget reports as of September 30, 2007, and current
reports for which the fieldwork took place. In the process of testing the results of the
eight selected indicators, we conducted 24 site visits in seven states, including
Khartoum. These visits included interviews with USAID/Sudan’s education team
members, implementing partners, service providers, and beneficiaries, as well as the
review of relevant documentation.




                                                                                     13
                                                                                 APPENDIX II



MANAGEMENT COMMENTS



Date:           December 30, 2008

To:             Nathan Lokos, Regional Inspector General/Pretoria

From:           Patrick Fleuret, Mission Director USAID/Sudan /s/

Subject:        Audit of USAID/Sudan’s Education Activities,
                (Report No. 4-650-09-00X-P)

The purpose of this memo is to communicate USAID/Sudan’s management review and comments
regarding recommendations per the subject report.

Review of Audit of USAID/Sudan’s Education Activities:

We have reviewed the audit of USAID/Sudan’s Education Activities, Report No. 4-650-09-00X-
P, and would like to take this opportunity to thank the auditors for their time, energy and
persistence in helping us to not only improve the USAID education development assistance but;
also, all the development assistance programs in Sudan.

We would request one minor change to the report on page 4: the title says "Reported Results
Were Not Always Valid and Reliable" and then in the Summary box the first sentence leaves out
the word "always" which should be inserted to be consistent with the title to make the sentence
more accurate.

General Management Comment:

Recognizing the challenges of managing for results in an uncertain environment in a new
mission, the Mission Director arranged for the Africa Bureau's M&E expert to be transferred to
Juba. She arrived in September 08 and is working with all technical teams to improve the
Mission’s program systems and procedures. In addition, the Education team leader moved
swiftly to address the issues raised by this audit. Training in data quality and data management
was provided to all partners at the October education meeting. Data reference sheets were
reviewed and target setting methodology adjusted based on the quality of source data and
verification of assumptions. The oversight in not having a formal Performance Management Plan
(PMP) approval memo on file has also been addressed; a copy of the signed memo is attached. In
addition, a management review of Education Development Center (EDC) conducted in late
November has confirmed that the systems put in place since the audit are making a difference to
results management and data quality. Specific actions are also being taken across all technical
teams to update their PMPs, validate data quality, and assess partner data management and flow
systems.

                                                                                             14
                                                                                     APPENDIX III


We would like to point out that the reason Creative Associates International did not have all the
source data for their indicators was due to the fact that there was a crisis in Abyei in May 2008, at
which time their Sudan Program office in Abyei was destroyed and their records burned. In the
future, data will be copied and stored in more than one location. Furthermore, record keeping
problems at the service provider level is the responsibility of the GOSS Ministry of Education,
Science and Technology (MOEST), as well as individual state ministries. Our Education Partner,
AED, is working with the MOEST to assist them in developing improved management
information systems.

Audit Recommendations and Management Comments:

Recommendation No. 1: We recommend that USAID/Sudan develop and implement a plan,
with milestones, to provide training to all implementing partners and service providers on how to
(a) properly record and report on program results, (b) maintain source documents, and (c) avoid
mathematical errors.

Management Comment: USAID/Sudan will train all of its implementing partners in data
quality, proper recording, reporting and the maintenance of source documents during their next
technical team meetings. These meetings will be completed by June 2009. The Education
meeting was held in October 2008 at which time training was provided. The Economic Growth
meeting is scheduled for the end of February 2009. Democracy and Governance and Health
meetings are still to be determined. In addition, the Mission has developed a standard reporting
format for use by all partners which will ensure that data is reported according to ADS standards.
The format is currently in the clearance process.

Recommendation No. 2: We recommend that USAID/Sudan establish procedures to ensure that
reported results from implementing partners meet validity, reliability and timeliness standards.

Management Comment: USAID/Sudan will assess the data management, flow and reporting
systems of all partners by June 2009 in order to ensure that their procedures meet ADS Data
Quality Assessment (DQA) standards.

Recommendation No. 3: We recommend that USAID/Sudan (a) establish procedures requiring
senior mission management review and approval of final performance management plans and (b)
review and approve the performance management plan for the education program.

Management Comment: Performance Management Plans (PMP) have been reviewed and
approved by senior mission management (see attachment).

Recommendation No. 4: We recommend that USAID/Sudan strengthen its procedures to ensure
that all of its data quality assessments include a thorough review of data validity and reliability.

Management Comment: A Mission Order on Monitoring and Evaluation will be developed
that will include Cognizant Technical Officers’ (CTOs) and Activity Managers’ responsibilities
for data quality assessment and verification. The Mission Order will be drafted by the end of
February 2009.

Recommendation No. 5: We recommend that USAID/Sudan establish procedures that require
the regular confirmation of data validity and reliability, as well as adequate reporting systems, for
results during site visits at all implementing partners and service providers.




                                                                                                  15
                                                                                  APPENDIX III


Management Comment: The Mission has instituted an annual process whereby data collection
methodology and target setting is reviewed for accuracy prior to the submission of the
Performance Plan and Review (PPR). Data quality assessments are currently under review and
changes will be documented in data reference sheets in the Mission PMP, which will be updated
by June 2009. Training in data quality assessment will also be provided to all CTOs and activity
managers so they are better prepared to effectively implement these roles and responsibilities.

Recommendation No. 6: We recommend that USAID/Sudan establish procedures requiring that
the confirmation of data validity and reliability during site visits be documented in site visit
reports.

Management Comment: A draft site visit check list has been developed and will be finalized by
the end of February 2009.




                                                                                               16
                                                                                     APPENDIX III



    USAID/Sudan Education Indicators
          for Fiscal Year 2007
                            Indicator Title                         FY 2007        FY 2007
                                                                     Target        Reported
        1. Number of administrators and officials trained              52            52
        2. Number of learners enrolled in U.S.
        Government-supported primary schools of                     48,500         43,800 8
        equivalent non-school-based settings
        3. Number of learners enrolled in U.S.
        Government-supported secondary schools or                    2,600          1,7368
        equivalent non-school-based settings
        4. Number of adult learners enrolled in U.S.
                                                                   262,800          8,3208
        Government-supported schools
        5. Number of teachers/educators trained with
                                                                     2,410          2,3828
        U.S. Government assistance
        6. Number of parent-teacher associations or
                                                                       30            108
        similar school governance structures supported
        7. Number of classrooms repaired with U.S.
                                                                       30             09
        Government assistance
        8. Number of classrooms constructed with U.S.
                                                                       52             09
        Government assistance
        9. Number of textbooks and other teaching and
        learning materials provided with U.S.                        2,820          2,5788
        Government assistance
        10. Does your program support education
        systems/policy reform? If yes, please describe
        the contributions of your program, including                  Yes           Yes 10
        progress and mission-level outcome or impact
        indicators
        11. Number of laws, policies, regulations, or
        guidelines developed or modified to improve
                                                                       6              6
        equitable access to or the quality of education
        services




8
  The audit was unable to confirm the validity and reliability of these results.
9
  No FY 2007 activity was funded. Accordingly, this indicator was not audited.
10
  This indicator was not audited.


                                                                                              17
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
